     Department of Homeland Security

     2IÀFHRI,QVSHFWRU*HQHUDO


Mitigation Planning Shortfalls Precluded FEMA Hazard
   Mitigation Grants to Fund Residential Safe Room
  Construction During the Disaster Recovery Phase




OIG-14-110-D                               June 2014

                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security
                              Washington, DC 20528 I www.oig.dhs.gov

                                  J U ~/   2 5 2014

MEMORANDUM FOR:               David L. Miller
                              Associate Administrator
                              Federal Insurance and Mitigation Administration
                              Federal E

FROM:
                              Assistan    spe    . en era I
                              Office of Emergency Management Oversight

SUBJECT:                     Mitigation Planning Shortfalls Precluded FEMA Hazard
                             Mitigation Grants to Fund Residential Safe Room
                             Construction During the Disaster Recovery Phase
                             FEMA Disaster Number 4117-DR-OK
                             Audit Report Number OIG-14-110-D

Attached for your information is our final letter report, Mitigation Planning Shortfalls
Precluded FEMA Hazard Mitigation Grants to Fund Residential Safe Room Construction
During the Disaster Recovery Phase. This is the second report in a series of three
resulting from our audit of FEMA 's Initial Response to the Oklahoma Severe Storms and
Tornadoes {4117-DR-OK}.

The report contains one recommendation aimed at improving the Federal Emergency
Management Agency's (FEMA) Hazard Mitigation Grant Program. Your office concurred
with our recommendation. As prescribed by the Department of Homeland Security
Directive 077-01, Follow-up and Resolution for Office of Inspector General Report
Recommendations, within 90 days of the date of this memorandum, please provide our
office with a written response that includes your (1) agreement or disagreement,
(2) corrective action plan, and (3) target completion date of the recommendation . Also,
please include responsible parties and any other supporting documentation necessary
to inform us about the current status of the recommendation. Until we receive and
evaluate your response, we will consider the recommendation open and unresolved.

Consistent with our responsibility under the Inspector General Act, we will provide
copies of our report to appropriate congressional committees with oversight and
appropriation responsibility over the Department of Homeland Security. We will post
the report on our website for public dissemination.
                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


Major contributors to this report are Christopher Dodd, Acting Director; Moises Dugan,
Supervisory Program Analyst; Patricia Epperly, Auditor-In-Charge; David Fox, Senior
Auditor; and Heather Hubbard, Auditor.

Please call me with any questions at (202) 254-4100, or your staff may contact
Tonda L. Hadley, Deputy Assistant Inspector General for Audit Services, Office of
Emergency Management Oversight, at (214) 436-5200.

Attachment




www.o ig.dhs.gov                            2                                OIG-14-110-D
                                 OFFICE OF INSPECTOR GENERAL
                                       Department of Homeland Security


Background
The State of Oklahoma (Oklahoma) lies in the heart of “Tornado Alley” and experiences
the most tornado disasters nationwide. In a span of 15 days, from May 18 to June 2,
2013, the Oklahoma City area experienced tornadoes, high winds, and floods, resulting
in 48 fatalities and more than 508 injuries. 1 On May 20, 2013, the President issued a
major disaster declaration for Oklahoma.

      Figure 1: Radar-derived tornado path, Oklahoma City area, May 19о31, 2013.




             Source: FEMA Incident Status Situation Report dated June 25, 2013.



On May 28, 2013, the Office of Inspector General deployed an Emergency Management
Oversight Team to the Joint Field Office in Oklahoma City, Oklahoma. 2 The Emergency
Management Oversight Team serves as an independent unit for oversight of disaster
response and recovery activities and provides FEMA an additional resource for proactive
evaluation to prevent and detect systemic problems in Federal assistance programs.

1
 Hereafter we use “May 2013” to refer to this event in this report.

2
 FEMA establishes Joint Field Offices in or near the disaster-impacted area for use by Federal and State

staff as the focal point of disaster recovery operations.


www.o ig.dhs.gov                                            3                                OIG-14-110-D
                              OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security



Section 404 of the Robert T. Stafford Disaster Relief and Emergency Assistance Act, as
amended, authorizes the Hazard Mitigation Grant Program. FEMA provides hazard
mitigation grants on a cost-shared basis to eligible applicants within a State declared
eligible for Federal assistance to implement measures designed to reduce the loss of life
and property from natural disasters. 3 Hazard Mitigation Grant Program funding is
contingent upon three FEMA approved plans: (1) the State All-Hazard Mitigation Plan,
(2) the State Hazard Mitigation Grant Program’s Administrative Plan, and (3) a local
mitigation plan. FEMA’s eligibility criteria require that projects be cost effective, comply
with environmental and historic preservation requirements, and provide a long-term
beneficial impact. Eligible applicants include State and local governments, certain
private nonprofit organizations and institutions, and Indian tribes of tribal organizations.

In our report, FEMA’s Initial Response to the Oklahoma Severe Storms and Tornadoes,
we identified local mitigation planning shortfalls that precluded FEMA’s approval of
funds to implement mitigation measures such as residential safe rooms. However, in
that report, we also stated that FEMA moved quickly to address State and local
mitigation planning shortfalls in Oklahoma.

A safe room is a hardened structure specifically designed to meet FEMA criteria and
provide "near-absolute protection" in extreme weather events, including tornadoes.
Individual homeowners and businesses may not apply directly to the FEMA Hazard
Mitigation Grant Program; however, an eligible applicant may apply on their behalf. For
individual homeowners in Oklahoma, residential safe room funding may be available
through local jurisdictions or through Oklahoma, which disburses funds to homeowners
through its Sooner Safe Program. According to FEMA, residential safe rooms typically
cost from $3,800 to $4,500.



Results of Audit

Residential safe rooms that FEMA funded after previous disasters provided effective
protection against the 2013 Oklahoma tornadoes. However, several local jurisdictions
did not have FEMA approved mitigation plans at the time of the disaster. As a result,
FEMA could not provide immediate funding to these jurisdictions to implement
additional mitigation measures against future disasters. FEMA can provide funding to

3
 FEMA also provides mitigation funds under Section 406 of the Stafford Act, which is limited to mitigating
the damaged element of a facility and must reduce risk of future damage from similar events.

www.o ig.dhs.gov                                    4                                       OIG-14-110-D
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


local jurisdictions to develop or renew local mitigation plans, but Federal regulations do
not require local jurisdictions to have FEMA-approved mitigation plans in advance of
disasters.

FEMA moved quickly to present Oklahoma with several options to accelerate the review
and approval of the local mitigation plans and renewals. However, the local mitigation
planning process should be proactive, not reactive. Therefore, to help ensure local
jurisdiction mitigation plans are ready when disasters strike and to help FEMA maximize
its investment in mitigation planning, we recommend FEMA work proactively with
grantees to develop a strategy to enhance the timely development and maintenance of
FEMA-approved local mitigation plans.

Finding A: Safe Room Construction Saves Lives

FEMA determined that residential safe rooms withstood the May 2013 tornadoes. The
May 2013 tornadoes claimed 26 lives, including 7 children, and injured more than 387. 4
However, local officials reported no fatalities of safe room occupants. FEMA said the
construction of approximately 11,000 FEMA-funded safe rooms since the May 1999
Oklahoma tornado, which killed 40, helped reduce the number of deaths. As figure 2
illustrates, the two tornadoes moved along similar paths.




4
 The Enhanced Fujita scale rates the strength of tornadoes in the United States based on the damage
caused. An EF-5 tornado is the highest rating and has wind speeds in excess of 200 miles per hour.

www.o ig.dhs.gov                                   5                                      OIG-14-110-D
                                  OFFICE OF INSPECTOR GENERAL
                                        Department of Homeland Security


         Figure 2: Track comparison of 1999 and 2013 Oklahoma City EF-5 tornadoes




            Source: National Weather Service




After the May 2013 tornadoes, FEMA, along with representatives from Texas Tech
University, inspected several safe rooms and concluded that they performed well. 5
FEMA reported on 17 safe rooms within the disaster area, varying in size, construction
(prefabricated metal, reinforced concrete, etc.), and location (above and below ground).
FEMA noted that, in newer neighborhoods, builders integrated safe rooms in residential
construction or provided homeowners cutouts in the garages for future below-ground
safe rooms.




5
 The res ults of the Texas Tech University testing program s erved a s the basis for the s afe room design guidelines,
cons truction drawings, a nd construction material lists presented i n FEMA 320 Taking Shelter from the Storm, Building
a Safe Room for your Home or Small Business, i ncluding construction plans and cost estimates.

www.o ig.dhs.gov                                           6                                            OIG-14-110-D
                                OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security




           Figure 3: A safe room standing in a field of debris in Moore, Oklahoma,
                         declaring itself “The Little Room That Did!!”




          Source: OIG Emergency Management Oversight Team, May 30, 2013.



FEMA also observed that, although below-ground safe rooms were more prevalent,
debris can block the doors and water can flood the rooms. In one case, a family reported
2 feet of water in their below-ground safe room from the heavy rain that accompanied
the tornado. Regardless, the 2013 tornadoes demonstrated that safe rooms save lives.

Finding B: Local Planning Shortfalls Precluded FEMA Mitigation Funding

The original major disaster declaration included five counties. Of the five, only one
county had a FEMA-approved local mitigation plan at the time of the disaster. 6 As a
result, FEMA could not provide mitigation funding to four of the five counties. According
to 44 Code of Federal Regulations (CFR) 201.6(a)(1), a local jurisdiction must have an
approved mitigation plan before it receives Hazard Mitigation Grant Program grants




6
 44 CFR 201.6(a)(4) also allows for multijurisdictional plans as long as each jurisdiction has participated in
the process and has officially adopted the plan. Because an individual government can submit its own
local mitigation plan, it is possible for a city to be eligible for FEMA mitigation funds even though it resides
in a county that is ineligible.

www.o ig.dhs.gov                                         7                                       OIG-14-110-D
                               OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


unless FEMA grants an exception. 7 Additionally, 44 CFR 201.6(d)(3) states that, to
remain eligible for mitigation grant funding, a local jurisdiction must review and revise
its plan and resubmit it for approval before its approved plan expires. The revisions must
reflect changes in development, progress in local mitigation efforts, and changes in
priorities. Ironically, the four counties without FEMA-approved plans had received FEMA
Hazard Mitigation Grant Program funds to either develop or renew their local mitigation
plans.

The responsibility for developing and maintaining a FEMA-approved local mitigation
plan rests solely with the local jurisdiction. However, if a jurisdiction receives FEMA
funding to develop or renew its local mitigation plan, the State, as the grantee, is
responsible for establishing project performance periods, tracking the progress of the
approved projects, and ensuring that subgrantees complete the projects and account
for approved funds as 44 CFR 206.438(c) and (d) require.

According to a FEMA official, both FEMA and Oklahoma focus on the period of
performance of the planning project grant, rather than the expiration date of an active
plan. Oklahoma allows a subgrantee 3 years to develop a local mitigation plan and 2
years to renew the plan. A FEMA-approved local mitigation plan expires in 5 years.
Therefore, because Oklahoma allows 2 years for a subgrantee to renew its plan, the
renewal process needs to begin by the end of the third year to avoid having the existing
plan expire. However, FEMA officials said that many jurisdictions wait until the last
minute to start the renewal process and therefore do not allow enough time to renew
the plans.

Additionally, according to FEMA’s Hazard Mitigation Assistance Unified Guidance
(June 1, 2010), physical work (such as groundbreaking, demolition, or construction of a
raised foundation) must not start before final project approval. Therefore, it is critical
that local jurisdictions in tornado-prone areas maintain their FEMA-approved local
mitigation plans.

FEMA and Oklahoma officials estimated that the May 2013 tornadoes destroyed or
heavily damaged over 2,000 homes. As of June 12, 2013, within 30 days of the disaster
declaration, FEMA approved more than $2.3 million in Hazard Mitigation Grant Program

7
 According to 44 CFR 201.6 (a)(3), “Regional Administrators may grant an exception to the plan
requirement in extraordinary circumstances, such as a small or impoverished community, when
justification is provided. In these cases, a plan will be completed within 12 months of the award of the
project grant. If a plan is not provided within this timeframe, the project grant will be terminated, and any
costs incurred after notice of the grant’s termination will not be reimbursed by FEMA.”

www.o ig.dhs.gov                                      8                                        OIG-14-110-D
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


funds in Oklahoma. Jurisdictions with FEMA-approved mitigation plans expect to receive
more than $1.3 million for the construction of residential safe rooms and more than
$322,000 for equipment such as warning sirens, weather radios, and generators. The
remaining $678,400 is for local mitigation planning. However, because communities did
not have, or did not maintain, a FEMA-approved local mitigation plan, and because
Oklahoma did not request an exception to this requirement for this disaster, FEMA
cannot provide Hazard Mitigation Grant Program funds to them. When FEMA Hazard
Mitigation Grant Program funds are available and eligibility requirements are met,
Oklahoma can provide some assistance to individual homeowners through its
SoonerSafe – Safe Room Rebate Program. 8

Finding C: No Requirements Exist To Maintain an Approved Local Mitigation Plan

FEMA encourages jurisdictions to develop local mitigation plans by requiring FEMA-
approved local mitigation plans as a condition of providing hazard mitigation funds.
Additionally, FEMA allows jurisdictions to use Hazard Mitigation Grant Program funds to
develop and renew local mitigation plans consistent with 44 CFR 201.6. However, FEMA
does not impose a nationwide mandate for local jurisdictions to submit local mitigation
plans or to maintain them after FEMA approves the plans.

According to 44 CFR 201.6(c)(4)(i), local mitigation plans must contain a section
describing the method and scheduling of monitoring, evaluating, and updating the
mitigation plan within a 5-year cycle. However, there is no requirement for a jurisdiction
to maintain its local mitigation plan as a condition of its plan approval or as a condition
of receiving Federal funds to develop or renew the plan. Additionally, FEMA officials do
not consider a lapse of a FEMA-funded mitigation plan a violation of the approved local
mitigation plan. As a result, plans may expire, thereby preventing FEMA from funding
sound mitigation measures beyond the 5 years that a FEMA-approved plan covers.

As noted earlier, four of the five hardest impacted counties did not have FEMA-
approved local mitigation plans at the time of the disaster despite having received a
FEMA Hazard Mitigation Grant Program grant to develop or renew their plans. Unlike
FEMA Public Assistance grants, where FEMA does not require an approved local
recovery plan to receive Public Assistance funds, the lack of local mitigation planning

8
 The Oklahoma Department of Emergency Management developed the SoonerSafe - Safe Room Rebate
Program to provide rebates to Oklahoma homeowners who purchase and install safe rooms. Oklahoma
uses FEMA Hazard Mitigation Grant Program funds to provide the rebates and intends to offer this
program on an annual basis, contingent upon Federal funding it receives after presidentially declared
disasters.

www.o ig.dhs.gov                                   9                                      OIG-14-110-D
                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security


negatively affects a jurisdiction’s ability to implement sound mitigation measures.
Before this disaster, FEMA obligated over $8.7 million to Oklahoma for 368 local
mitigation planning project grants since May 1999 (an average of nearly $24,000 per
planning grant).

FEMA should work cooperatively with States to address local mitigation planning
shortfalls to assist communities and disaster survivors in implementing mitigation
measures before a disaster strikes. To maximize FEMA’s investment in mitigation
planning, FEMA should explore its options (through statutory or regulatory change, if
necessary). These options might include making FEMA’s approval of local mitigation
plans or planning grants contingent upon the jurisdiction renewing the plan before the
5-year plan expires, or extending the renewal timeframe of a FEMA-approved plan for
more than 5 years. While considering these changes, FEMA could use this as an
opportunity to explore ways to develop quicker, less expensive, and possibly more
effective mitigation plans and renewals.


Conclusion
An effective disaster recovery relies on a strong partnership between the impacted
community, the States, and FEMA. Measures taken to prevent or reduce the effects of
future events also require close coordination and unity of effort. FEMA recognizes the
importance of hazard mitigation and provides funding to implement mitigation
measures as well as to develop and renew mitigation plans.

The Hazard Mitigation Grant Program is an effective method of mitigating future
damage and, in the case of safe rooms, provides near absolute protection from extreme
weather such as tornadoes. However, grants that FEMA awards for local mitigation
planning that do not require jurisdictions to maintain these plans beyond the first 5-year
cycle do not maximize FEMA’s long-term investment in funding mitigation planning.
Further, FEMA should judiciously exercise its approval of exceptions to the local
mitigation plan requirement so as not to undermine the incentive for local jurisdictions
to have a FEMA-approved local hazard mitigation plan in effect when a disaster strikes.




www.o ig.dhs.gov                            10                                OIG-14-110-D
                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security


Recommendation

We recommend that the FEMA Associate Administrator, Federal Insurance and
Mitigation Administration, work proactively with grantees to develop a strategy to
enhance the development and maintenance of local mitigation plans.


Discussions with Management
We provided a draft report in advance to FEMA officials and discussed it at an exit
conference on March 20, 2014. FEMA officials fully concurred with finding A and
generally concurred with findings B and C. FEMA officials pointed out that FEMA has the
authority to grant exceptions to local planning requirements and acknowledged that
Oklahoma did not request an exception. Based on FEMA’s comments, we amended this
report. FEMA officials also concurred with the recommendation.

In its April 18, 2014, response, FEMA stated that existing Federal regulations address our
recommendation (Appendix B). However, these regulations did not prevent the
shortfalls in local hazard mitigation planning we discuss in this report. In addition, the
exception, if Oklahoma requests it, may allow FEMA to fund projects immediately, but it
does not remedy or prevent the planning shortfalls from recurring. FEMA’s response
addresses our recommendation only in part by referring to existing regulations; it does
not include a corrective action plan of future activities, or actions taken since this
disaster, to address mitigation planning shortfalls.

Further, FEMA stated that the FEMA-approved State of Oklahoma Mitigation Plans (past
and present) consistently support and encourage development of local mitigation plans,
and that States are required to update its State Mitigation Plan at least every 3 years,
including a strategy to assist communities with local mitigation planning. FEMA also said
that it provides training, technical assistance, and planning grants through its Hazard
Mitigation Assistance programs, to assist States with their strategies.

However, our report specifically identifies shortfalls in the maintenance of active plans,
despite the Federal regulations already in place. We agree that regulations address a
process to support the development of local mitigation plans, primarily through
planning grants. However, as we reported, four of the five counties declared did not
have FEMA-approved plans at the time of the disaster despite having received FEMA
funds to either develop or renew them. Additionally, we reported that Federal

www.o ig.dhs.gov                            11                                 OIG-14-110-D
                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


regulations require local plans to contain a section describing the method and
scheduling of monitoring, evaluating, and updating the mitigation plan within a 5-year
cycle. This is despite the fact that no Federal requirements mandate a local hazard
mitigation plan to exist or continue to exist once written. Therefore, FEMA should work
proactively with grantees to develop a strategy to prevent or at least minimize active
local mitigation plans from expiring.

We provided a draft report to Oklahoma officials and discussed it at an exit conference
held on April 8, 2014. Oklahoma officials agreed with the report and concurred with the
recommendation.




www.o ig.dhs.gov                           12                               OIG-14-110-D
                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


Appendix A
Objective, Scope, and Methodology
The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
established by the Homeland Security Act of 2002 (Public Law 107о296) by amendment
to the Inspector General Act of 1978. This is the second report in a series of three
resulting from our audit of FEMA's Initial Response to the Oklahoma Severe Storms and
Tornadoes (4117-DR-OK). The objectives in this audit were to determine whether FEMA-
funded safe rooms were effective and whether local mitigation planning requirements
accelerated the implementation of sound and timely mitigation measures.

We interviewed FEMA officials; attended mitigation briefings at the Joint Field Office in
Oklahoma City, Oklahoma; reviewed FEMA safe room assessment reports; collected
information from FEMA’s Enterprise Data Warehouse; and performed other procedures
considered necessary to accomplish our objectives. We did not assess the adequacy of
FEMA’s internal controls applicable to disaster response because it was not necessary to
accomplish our audit objective.

We conducted this performance audit between May 2013 and March 2014, pursuant to
the Inspector General Act of 1978, as amended, and according to generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based upon our audit objectives. We believe the evidence
obtained provides a reasonable basis for our findings and conclusions based upon our
audit objectives.




www.o ig.dhs.gov                           13                                OIG-14-110-D
                   OFFICE OF INSPECTOR GENERAL
                     Department of Homeland Security


Appendix B
Management Comments to the Draft Report




www.o ig.dhs.gov                 14                    OIG-14-110-D
                   OFFICE OF INSPECTOR GENERAL
                     Department of Homeland Security




www.o ig.dhs.gov                 15                    OIG-14-110-D
                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


Appendix C
Report Distribution
Department of Homeland Security
Secretary
Chief of Staff
Chief Financial Officer
Under Secretary for Management
Chief Privacy Officer
Audit Liaison, DHS

Federal Emergency Management Agency
Administrator
Chief Counsel
Chief of Staff
Chief Financial Officer
Director, Risk Management and Compliance
Federal Coordinating Officer, FEMA Disaster Number 4117-DR-OK
Regional Administrator, FEMA Region VI
Deputy Regional Administrator, FEMA Region VI
Audit Liaison, FEMA (Job Code G-14-026-EMO-FEMA)
Audit Liaison, FEMA Region VI
Management Analyst, FEMA Region VI

Recovery Accountability and Transparency Board
Director, Investigations, Recovery Accountability and Transparency Board

Office of Management and Budget
Chief, Homeland Security Branch
DHS OIG Budget Examiner

Congress
Senate Committee on Appropriations, Subcommittee on Homeland Security
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations, Subcommittee on Homeland Security
House Committee on Homeland Security
House Committee on Oversight and Government Reform
House Committee on Transportation and Infrastructure


www.o ig.dhs.gov                          16                               OIG-14-110-D
                       OFFICE OF INSPECTOR GENERAL
                          Department of Homeland Security


State
Director, State of Oklahoma Emergency Management
Oklahoma Office of State Auditor and Inspector




www.o ig.dhs.gov                      17                    OIG-14-110-D
ADDITIONAL INFORMATION

To view this and any of our other reports, please visit our website at: www.oig.dhs.gov.

For further information or questions, please contact Office of Inspector General (OIG)
Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov, or follow us on
Twitter at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to:

       Department of Homeland Security 

       Office of Inspector General, Mail Stop 0305 

       Attention: Office of Investigations Hotline 

       245 Murray Drive, SW 

       Washington, DC 20528-0305 


You may also call 1(800) 323-8603 or fax the complaint directly to us at
(202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
